<html>
<title> - IMPROVING CUSTOMER SERVICE FOR THE COPYRIGHT COMMUNITY: ENSURING THE COPYRIGHT OFFICE AND THE LIBRARY OF CONGRESS ARE ABLE TO MEET THE DEMANDS OF THE DIGITAL AGE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










IMPROVING CUSTOMER SERVICE FOR THE COPYRIGHT COMMUNITY: ENSURING THE 
   COPYRIGHT OFFICE AND THE LIBRARY OF CONGRESS ARE ABLE TO MEET THE 
                       DEMANDS OF THE DIGITAL AGE

=======================================================================


                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                HELD IN WASHINGTON, DC, DECEMBER 2, 2015

                               ----------                              

      Printed for the use of the Committee on House Administration




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




























 IMPROVING CUSTOMER SERVICE FOR THE COPYRIGHT COMMUNITY: ENSURING THE 
   COPYRIGHT OFFICE AND THE LIBRARY OF CONGRESS ARE ABLE TO MEET THE 
                       DEMANDS OF THE DIGITAL AGE

=======================================================================


                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, DECEMBER 2, 2015

                               __________

      Printed for the use of the Committee on House Administration




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-529                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001  
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
RICHARD NUGENT, Florida                Ranking Minority Member
RODNEY DAVIS, Illinois               ZOE LOFGREN, California
BARBARA COMSTOCK, Virginia           JUAN VARGAS, California
MARK WALKER, North Carolina

                           Professional Staff

                       Sean Moran, Staff Director
                  Jamie Fleet, Minority Staff Director
 
 IMPROVING CUSTOMER SERVICE FOR THE COPYRIGHT COMMUNITY: ENSURING THE 
   COPYRIGHT OFFICE AND THE LIBRARY OF CONGRESS ARE ABLE TO MEET THE 
                       DEMANDS OF THE DIGITAL AGE

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:11 a.m., in room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the Committee) presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Walker, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; John L. Dickhaus, Legislative Clerk; Erin McCracken, 
Communications Director; Reynold Schweickhardt, Director of 
Technology Policy; Brad D. Walvort, Professional Staff Member; 
Edward J. Puccerella, Professional Staff Member; Jamie Fleet, 
Minority Staff Director; Matt Pinkus, Minority Senior Policy 
Advisor; Khalil Abboud, Minority Deputy Staff Director/Director 
of Legislative Operations; Mike Harrison, Minority Chief 
Counsel; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. We will move on and now call to order the 
Committee on House Administration's hearing today, which is 
going to be on the U.S. Copyright Office.
    The hearing record will remain open for 5 legislative days 
so that members may submit materials that they wish to be 
included. [The information follows:]
    The Chairman. Today we are holding this hearing to discuss 
the current IT functionality of the Library of Congress' 
Copyright Office, areas where the Copyright Office is focused 
on improving their overall customer service, and how, working 
together, the leadership within the Library and its Copyright 
Office are meeting the demands of today's digital age.
    We would ask our witnesses to come forward. I see them as 
we are making our opening remarks.
    Wow, you were all back in that room? Okay.
    The Copyright Office is one of seven business units within 
the Library of Congress and operates using both appropriated 
funds as well as the fees that it collects for copyright 
registration, recordation, and statutory licensing to manage 
the disbursement of royalty payments. Each year the Library's 
Copyright Office examines approximately a half a million 
creative works, such as books or songs, movies, software, 
Internet platforms, and provides a copyright of authorship to 
those individual products.
    The Library is charged to administer our Nation's system of 
copyright law, which it inherited back in 1870. It is really a 
huge responsibility that promotes innovation and creativity. 
For writers, singers, producers, IT developers, the copyright 
process provides clear lines of authorship and ownership of 
their creative products and protects them as they are 
distributed throughout the world, a task that is becoming 
increasingly complex and challenging in today's digital world.
    Today, of course, we are streaming and we are downloading 
content. We are using social media and multifaceted Internet 
platforms and software, constantly updated to improve customer 
interface and security.
    The mission of the Copyright Office, which is so critical 
to innovative growth in the world today, is to provide 
customers with the assurance that their hard work and 
investment will be protected. It is to instill the confidence 
people need to invest in a new idea or a new product. Again, in 
today's fast-moving digital world that assurance is 
increasingly difficult to provide.
    So the technology and business model needs to evolve for 
today's customers. It does so with each of the seven units, and 
the Library's central IT office plays a critical role in 
supporting the Copyright Office, including providing a 
technology infrastructure and the support for needed capital 
improvements. The two entities rely very heavily on one 
another.
    Understanding the scope and significance of this operation, 
it is very concerning to read the GAO report that was released 
just earlier this year outlining the Library's longstanding 
weaknesses across several IT areas, including Copyright. 
According to the reports, operational and organizational 
challenges within the Library and its Copyright Office have 
resulted in a serious backlog with the registration and 
recordation system, causing extensive wait times, some as long 
as 18 months, as has been noted.
    In addition to outdated technologies and insufficient IT 
capabilities, especially with the recordation process, the GAO 
also identified deficiencies related to data integrity and 
security. It also highlighted the lack of a Library-wide 
strategic plan to address all of these problems.
    In its report, the GAO included 31 recommendations for the 
Library to address these weaknesses. Perhaps most importantly, 
they also highly recommended that the Library hire a Chief 
Information Officer. So our Committee, of course, will be 
looking for an update on where the Library is with these 
recommendations and as well what caused a recent IT service 
outage that affected a number of Library-supported systems, 
including the Copyright Office. In fact, for more than a week, 
an entire week in September, the online copyright registration 
system, which is referred to as eCO, was down for a week 
because of the outage.
    So the Committee obviously wants to hear from the Library 
regarding the current IT system and how those operations have 
been impacting its Copyright Office in the copyright community. 
The Committee is also interested to hear how overall customer 
service experiences will be improved.
    The Committee will also be hearing from the Register of the 
Copyright Office today and how the Copyright Office's own 
management structure fits within the broader Library system, if 
the Copyright Office is receiving the required support from the 
Library, and how these two entities, again, are working 
together to correct the current issues that they face today.
    Finally, we will be hearing from the GAO about the problems 
identified in the March report and the Library's progress 
implementing its recommendations.
    I would just note that I know there have been a number of 
people who have been advocating for some period of time that 
the Copyright Office actually be independent from the Library, 
but that is not the purpose of today's hearing. That is not 
what we are talking about today. Today we want to hear how 
Library management, both the Acting Librarian and the Register 
of Copyrights, are working together diligently to fix the 
immediate problems before them to improve their operations and 
customer support.
    I want to thank our witnesses for their appearance, and I 
will more formally introduce them in just a moment. But now I 
would like to recognize my colleague and the ranking member of 
the Committee, Mr. Brady, for purposes of his opening 
statement.
    Mr. Brady. Thank you. And I want to thank the Chairman for 
calling this important hearing today. And I would like to 
congratulate David Mao on his new responsibilities as Acting 
Librarian of Congress.
    Madam Chairman, I have a longer statement for the record, 
but would like to make a few comments before we hear from our 
witnesses.
    I want to be clear that I support keeping the Copyright 
Office in the Library of Congress, but I also want to be clear 
that the Library of Congress needs to support the Copyright 
Office. This starts with solid operations support, including a 
laser-like focus on informational technology, and I hope to 
hear today how the Library of Congress offices are working 
together to provide creators and inventors good customer 
service.
    I am pleased with the work that David and his team at the 
Library have done, but that is just a start, and I look forward 
to hearing about how we could continue to make important 
progress in this area.
    I thank the Chairman again, and I yield back the balance of 
my time.
    [The statement of Mr. Brady follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
     
    The Chairman. I thank the gentleman.
    I would also like to congratulate David Mao as I formally 
introduce him. He became the Acting Librarian on October 1, 
2015.
    So you are just getting your feet wet, so to say, but not 
really because he had previously served as Deputy Librarian of 
Congress from January 12 of 2015, and before that he was the 
23rd Law Librarian of the Congress, serving in that position 
since January of 2012. He also has experience in the Library 
working as the section head for the Congressional Research 
Service and also became the first Deputy Law Librarian of 
Congress. He also has experience in the private sector, working 
in private practice for a number of years.
    He graduated from George Washington University, obtained 
his law degree from Georgetown University Law Center, and also 
has a master's degree in Library Science from the Catholic 
University of America.
    So we welcome you, sir.
    Maria Pallante was appointed as the Register of Copyrights 
on June 1, 2011, after serving 5 months as the Acting Register 
of the Copyright Office. She also served as the Copyright 
Office--served it as Deputy General Counsel from 2007 to 2008 
and as an Associate Register and Director of Policy and 
International Affairs from 2008 to 2010.
    Ms. Pallante also has extensive experience working in the 
area of copyright. Before coming to this office, she also 
worked as the assistant director of the Authors Guild, Inc., 
and then as executive director of the National Writers Union, 
focusing on copyright policy, transactions, litigation, and 
freedom of expression issues.
    She is a 1990 graduate of the George Washington University 
Law School. She earned her bachelor's degree from 
Misericordia--I hope I am pronouncing that correctly--
University in Pennsylvania.
    Finally, Joel Willemssen is the Managing Director of 
Information Technology Issues at the U.S. Government 
Accountability Office. In this position he has overall 
responsibility for the GAO's evaluations of information 
technology across the Federal Government.
    Since joining the GAO in 1979, he has led numerous reviews 
of information technology systems and management at a wide 
array of Federal agencies. He frequently testifies on 
information technology issues before congressional committees, 
appearing as a GAO witness on more than 100 occasions.
    So you are pretty old hat at this, I would say. We 
appreciate you being here.
    He received his bachelor and master's degree in business 
administration from the University of Iowa.
    So, again, we thank you all for joining us. At this time 
the chair would recognize the Librarian of Congress, David Mao.

STATEMENTS OF DAVID S. MAO, ACTING LIBRARIAN OF CONGRESS; MARIA 
A. PALLANTE, REGISTER OF COPYRIGHTS AND DIRECTOR OF THE UNITED 
STATES COPYRIGHT OFFICE; JOEL C. WILLEMSSEN, MANAGING DIRECTOR, 
 INFORMATION TECHNOLOGY--U.S. GOVERNMENT ACCOUNTABILITY OFFICE

                   STATEMENT OF DAVID S. MAO

    Mr. Mao. Thank you. Thank you, Chairman Miller, Ranking 
Member Brady and Members of the Committee. Good morning. I am 
honored to testify before you today in my ninth week as Acting 
Librarian of Congress.
    Since 1800, the Library has faithfully served Congress. 
Congress placed the copyright function in the Library in 1870, 
and since then the Library has contributed to the government's 
constitutional role to promote the progress of science and 
useful arts. Copyright deposits have been a resource for 
generations of Americans and we take seriously our stewardship 
of this important record of America's heritage.
    Factors leading to the 1870 act still exist today; however, 
improvements are needed. Copyright law needs to be updated. 
Regulations and processes must keep pace with the demands and 
expectations of copyright users. The Copyright Office 
infrastructure needs to be strengthened and modernized.
    The Library is a resource of knowledge that furthers 
intellectual and creative activity and customer service is 
crucial to our work. I know the Register shares my goal to 
provide services when, where, and in whatever form modern users 
expect and demand. We will work together to develop the updated 
processes and modernized systems to meet the needs of and serve 
our customers and stakeholders.
    The Library has developed more than 250 enterprise systems 
and applications over the past 50 years. While achieving these 
successes, though, some areas have not kept pace with the 
development of technology and general standards and best 
practices. I assure you that these are a top priority. We have 
work to do to achieve a high-performing IT environment that 
supports the entire Library of Congress in serving you and the 
American people, and we are firmly committed to achieving this 
objective.
    GAO's March report documented IT issues that require 
immediate attention. As Acting Librarian of Congress, I accept 
responsibility for implementing strategies to forge a new path 
forward. These strategies are built on three key pillars: 
leadership, collaboration, and secure accessibility.
    First, GAO identified the lack of a permanent Chief 
Information Officer. I am happy to report that Mr. Bud Barton 
joined the Library as permanent CIO this past September. He 
heads the newly aligned Office of the CIO, specifically focused 
on providing IT leadership and services. With his guidance, the 
Library began implementing changes to ensure that IT strategic 
planning, procurement, and management are considered at the 
appropriate levels and consistent across the Library. The CIO 
and I meet weekly to review the status of these changes and 
issues identified by the GAO and the Library's inspector 
general.
    Second, collaboration is essential to managing IT 
investments and resources effectively. The Library is committed 
to providing an IT framework built upon performance, 
reliability, security, and adaptability, and that allows 
flexibility for specialized systems best managed at the unit 
level. The CIO is implementing agreements across the Library 
for delivery of IT infrastructure and services to support 
normal business operations. We are in a time of change and 
recognize that ongoing communication and adjustment is 
necessary to ensure that collaboration continues successfully.
    We share GAO concerns about potential duplication in IT 
services between the Office of CIO and Library units; however, 
an enterprise model provides for individual control of critical 
systems and development processes while also ensuring effective 
use of resources and preventing investment overlap.
    Third, ensuring security while allowing access to data is 
one of the most significant challenges in handling digital 
content. Collection items such as paper and books are 
relatively easy to protect. Digital content, on the other hand, 
requires secure storage systems, backups for data protection 
and preservation, and access management policies for users. 
These challenges are complex, but not insurmountable. The 
Library has a long history of protecting digital content while 
simultaneously making it accessible and we are proud of our 
record of doing so. We will take the steps required to ensure 
copyright materials remain secure.
    The Library is committed to reaching for the highest levels 
of customer service, and I am confident that our current 
strategies and planned improvements will allow for us to do so. 
We are working closely with the GAO audit team and the 
Library's inspector general to fulfill their recommendations.
    Chairman Miller, Ranking Member Brady, and Members of the 
Committee, thank you for the opportunity to speak with you 
today. You will find additional detail on recent IT management 
improvements in my written statement. I look forward to 
responding to your questions.
    [The statement of Mr. Mao follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
        
    The Chairman. Thank you very much.
    The Chair now recognizes Register Pallante.

                 STATEMENT OF MARIA A. PALLANTE

    Ms. Pallante. Chairman Miller, Ranking Member Brady, and 
Members of the Committee, thank you for holding this public 
hearing and for your concern in particular about customer 
service.
    My staff and I have dedicated the past few years to 
modernization issues, both assessing gaps in the copyright law 
and gaps in copyright administration. Through this work it has 
become clear to us that major operational changes are needed 
for the Copyright Office if it is to meet the dynamic needs of 
the global marketplace that we serve.
    Technology is obviously the cornerstone of a modern 
copyright system. This is why in October 2011 I announced a 
number of multiyear special projects, including a technical 
upgrades project from which we published a major assessment of 
customer experiences and a series of baseline recommendations. 
The project team recommended that we develop a robust, 
responsive, and highly secure enterprise architecture decoupled 
from Library operations and dedicated to the unique and 
critical mission of administering the copyright law.
    I also created the first Chief Information Officer position 
on the Register's management team in 2012. This Copyright 
Office CIO was a recommendation from public interest 
organizations and copyright owners alike. But this is just the 
beginning. The Copyright Office will need a robust team of 
technology and data experts. These experts should not merely be 
assigned or on call from another part of the agency, but rather 
be integrated into the Copyright Office mission where they can 
work side by side with legal and business experts and with 
direct, not indirect, accountability to the Register.
    Just yesterday I released an exciting 5-year plan, copies 
of which you should have received, that draws upon several 
years of deliberative analysis and public processes. It 
incorporates extensive public recommendations. As stated in the 
plan, modernization is about more than upgrades to hardware and 
software. The office is at a time where we need to re-envision 
almost everything we do, including how customers register 
claims, submit deposits, record licenses, file security 
interests, share royalty information, and utilize expert 
resources. Although it is not the focus of this hearing, many 
policy issues are dependent upon modern IT systems, including 
improvements to music licensing, orphan works, and small claim 
solutions.
    In the current paradigm, modernization will depend upon and 
be subject to IT services from the Library of Congress, but 
this central management of IT resources has never worked well 
for the copyright community. It has, in my opinion, quite 
literally disconnected the Register's statutory responsibility 
to administer the copyright law from the tools, technologies, 
and staffing that are necessary to do so. It should be alarming 
to all of us that under this arrangement no one in the agency 
has complete control of or complete accountability for the 
authoritative records of copyright ownership under U.S. law.
    IT challenges are difficult to divorce from larger 
governance questions. The Library and the Copyright Office have 
always had important but distinct missions. It does not serve 
either institution to further conflate or entwine them. Such 
conflation, in fact, is contrary to the original goals of 
Congress, which in 1897 created the Copyright Office for the 
purpose of separating copyright functions from Library 
functions. These boundaries were important then, but they are 
much more important today.
    My goals for the Copyright Office reflect all of my 
experience as a copyright attorney--some 25 years--and 4 years 
of public processes that I conducted as Register. Our customers 
should be able to transact easily, quickly, from anywhere at 
any time, using consumer-friendly platforms, mobile 
technologies, and modern metadata. They should have searchable 
digital records that provide the lifecycle of a copyright 
interest from creation to public domain and a chain of title 
that supports integration of third-party data. These services, 
performed properly, will fuel any number of innovative 
businesses and ensure that both authors and users of 
intellectual property receive the benefits and the presumptions 
of the law. This is what copyright administration is about in 
the 21st century.
    In closing, I want to thank my colleagues at the Library of 
Congress and my friend David Mao for engaging on these complex 
issues and I want to thank GAO for sharing its expertise this 
past year. I hope that the Library can support these goals. But 
over the past few years that support has been subservient and 
it has also been hostile at times. Thank you.
    [The statement of Ms. Pallante follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. Thank you very much.
    The Chair now recognizes Mr. Willemssen for his testimony.

                STATEMENT OF JOEL C. WILLEMSSEN

    Mr. Willemssen. Thank you, Chairman Miller, Ranking Member 
Brady, Members of the Committee. Thank you for inviting us to 
testify today. As requested, I will summarize our statement on 
our reports issued earlier this year on IT issues at the 
Library of Congress and at the Copyright Office.
    Regarding the Library of Congress, our March report 
identified weaknesses in numerous IT management-related areas. 
Examples of these were, one, not having an IT strategic plan 
detailing how the Library intended to address future goals and 
strategies, which was especially important given that 
information is increasingly being created, shared, and 
preserved in digital formats.
    Two, the Library had a highly inaccurate and inconsistent 
inventory of its information technology assets.
    Three, the Library did not know how much it was spending on 
IT. In the absence of such information, GAO conducted work to 
estimate expenditures and determined that the Library had at 
least $119 million in IT obligations for fiscal year 2014.
    Four, the Library was not effectively overseeing its 
investments in IT and its acquisitions were not always guided 
by well-developed risk management, and cost and schedule 
estimating approaches.
    Five, deficiencies in information security and privacy 
practices and associated technical controls placed systems and 
data at risk of unauthorized access, modification, or loss.
    Six, the Library's central IT office did not provide 
services that satisfied the other operating units. Accordingly, 
these other units often considered other options for addressing 
their IT needs.
    A key factor contributing to these and other weaknesses was 
that the Library lacked a Chief Information Officer with clear 
responsibility and adequate authority. Subsequent to our report 
being issued, the Library appointed a Chief Information 
Officer. However, it remains to be seen whether this position 
will have clear responsibility and adequate authority to drive 
needed improvements.
    Overall, the Library generally concurred with our 31 
recommendations intended to provide a sound foundation for 
improving the management of IT. Further, the Library has 
initiated a range of actions to address the recommendations. 
However, none of the 31 has been fully implemented yet.
    Looking forward, the Library needs to commit to milestones 
for implementing our recommendations and focus on meeting those 
milestones in order to make progress in improving its IT 
management.
    Turning to the Copyright Office, our March report 
identified a number of IT challenges, particularly with regard 
to the Electronic Copyright Office system, or eCO, which is 
used for, among other things, the registration of copyrights. 
These challenges included numerous user complaints about the 
performance and usability of the eCO system.
    We also reported that the Copyright Office had proposed 
investments in several IT improvement projects, but had not yet 
developed an IT strategic plan to guide its efforts. We noted 
that the office had been hindered in developing long-term plans 
due to the absence of such plans for the Library as a whole. In 
addition, dissatisfaction with IT services provided by the 
Library led Copyright to pursue its own IT activities.
    Since GAO's review, Copyright has issued an overall 
strategic plan that, among other things, describes goals and 
objectives for improving its IT environment. Going forward, 
Copyright will need to follow through on its intentions to 
develop a more detailed IT plan that will include specific 
strategies, costs, and time lines. Such an approach, if 
implemented effectively, can lay the groundwork for 
modernization of systems critical to its mission.
    That concludes the summary of my statement. I look forward 
to your questions.
    [The statement of Mr. Willemssen follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
    
    The Chairman. Thank you.
    Before I start my questions, I have been asked by the 
Copyright Alliance to enter in for the record and with a UC, if 
I could, a report that they have here, ``Improving Customer 
Service for the Copyright Community.'' Without objection, I 
will enter that into the record.
    [The information follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    The Chairman. Certainly, listening to Mr. Willemssen 
articulate a number of the recommendations that were in the GAO 
report is eye opening, and I guess let's just start with that.
    If I could ask Mr. Mao, here you have 31 recommendations, 
which he didn't go through all of them, but really, apparently 
none of them have been implemented yet, even though the Library 
did say that they were going to start some of them in September 
of this year, which has not happened. I do know that you have 
hired a CIO, but I don't think you have strategically outlined 
all the various areas for how that is all going to work. So 
perhaps you could just tell us. I am sure you have read the 
report and dissected it, and I am hopeful that you can tell us 
how you would be prioritizing all of these various 
recommendations that they have made to you.
    Mr. Mao. Thank you, yes. And we have taken the 31 
recommendations, and by our account some of them are completed. 
We are working right now with the GAO audit team to get 
validation from them that they are indeed completed. We have 
met with them regularly to discuss them and will continue to 
meet with them regularly going forward to ensure that all of 
the 31 recommendations are completed. We have a schedule that 
will allow us to complete the 31 recommendations hopefully by 
2018.
    The Chairman. Is that something you can share with the 
Committee?
    Mr. Mao. The schedule?
    The Chairman. Yes.
    Mr. Mao. Certainly, we can. I am happy to provide it.
    The Chairman. Okay, could you just tell us what is your top 
priority, one, two, three, perhaps?
    Mr. Mao. Well, the top priorities were identified earlier, 
and one of them, of course, the number one priority was hiring 
a permanent CIO, which we do have on board. And I understand 
Mr. Willemssen's comment that, you know, it remains to be seen 
whether the hiring of this permanent CIO will completely close 
out that recommendation. But he has started just in September 
and I think we have made good progress with him in the last 2 
months. And I look forward to proving to the GAO that we can 
close out that particular recommendation.
    And in addition, we have created an IT strategic plan that 
was identified in the GAO report. That is in its final stages 
right now to be shared with the Executive Committee very 
shortly and we hope to have that released by the end of this 
month.
    We are also implementing processes and procedures for IT 
investment strategies going forward to make sure that all of 
the information we collect and all of the information is shared 
transparently across the entire Library and also that 
information submitted by all of the units for their needs are 
considered, and that process was just recently started.
    For our preparation for the fiscal 2017 budget cycle, we 
considered new and expanded program requests from all of the 
units and we walked through the process as we have identified. 
And certainly, our regulations and internal guidelines will be 
modified to reflect all of these processes that we are putting 
into place.
    The Chairman. I appreciate that.
    Mr. Willemssen, as you heard that, maybe you are already 
familiar with that list of priorities. What is your thought 
about those priorities, or should they be looking at other 
priorities? What do you think?
    Mr. Willemssen. I agree with the Acting Librarian on the 
first priority, appointing a CIO. The next step is making sure 
that the CIO has adequate responsibility and authority to carry 
out the mission. That is what we will be looking for over the 
next couple months, in addition to seeing that the CIO has 
oversight over mission-critical systems and takes more of a 
leading role on what we refer to as commodity IT--back office 
systems, financial management, human resources, email, laptops, 
cell phones, et cetera. We would like to see more of an active 
role there.
    The other critical things that we think from an immediacy 
standpoint that need to be addressed are one, you need to get a 
clear inventory on exactly where your assets are located. The 
Library has made a lot of progress on that, and are doing some 
reconciliation of the data now. One of the reasons this is 
important is that you have to know where your access points are 
from an information security standpoint so that you can protect 
your systems and your data.
    Secondly, the Library needs to get a handle on IT spending, 
and they are in the process of doing that. So it is not to say 
they haven't made any progress. They have made tremendous 
progress. However, they are not quite there yet.
    There are also some information security weaknesses from a 
patching and perimeter control perspective that they need to 
focus on addressing. The Library has probably made the most 
progress in the information security area. You may know we also 
issued a not-for-public-release in-depth security report that 
had 74 recommendations. The Library has already made progress 
on many of those recommendations.
    The Chairman. Very good. Well, I am delighted hearing that 
you are making that kind of progress and that you look at the 
GAO report as an opportunity for help, and a tool of 
assistance, not in an adversarial way. Sometimes, when people 
are critical of our nest, we have a tendency to see that as an 
adversarial kind of thing, but we shouldn't look at it that 
way. Audits, and GAO in particular, can be extremely helpful 
for every agency.
    Ms. Pallante, you and I had an opportunity to chat on the 
phone for quite a while yesterday about various things that are 
happening in your agency, and I mentioned to you that in my 
former life as a Michigan secretary of state where we had 
jurisdiction over the DMV as well, I had the largest agency, I 
guess, in State government at that time, but we always said 
that customer service was the operative phrase for everything 
that we were trying to do. I know that is so in your department 
as well.
    Talking about eCO--I know that is how it is pronounced, I 
don't know exactly what it is, E something-- but that is an 
ability for your customers to file online, right? Maybe you 
could talk about that a little bit. What is that? Is it 
particularly helpful? You mentioned about the customer 
experiences, so on and so forth. You also said that you just 
released this report yesterday. So, I mean, I have not had time 
to even--I am just looking at it right now. Anyway, we will 
enter it into the record, without objection.
    [The information follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
     
    The Chairman. Perhaps you could talk a little bit about 
whether or not your customers look at your current system, the 
eCO system, as something that is really customer service 
oriented, that it is easier for them, that they have a good 
experience with that.
    Ms. Pallante. Thank you, Chairman Miller.
    So I think one way to look at eCO, because it predates 
everybody at this table, is that it was a good first-generation 
system. It is 10 years old, and it was probably outdated by the 
time it was implemented. I get to say that because I was in 
private practice in New York at the time and I wasn't there and 
don't really know whether it was state of the art at the time 
or not.
    I do think that off-the-shelf software was a big push in 
government agencies at that time, and I think those were 
probably the instructions coming from the appropriators in 
conversations with the Librarian's office about budget.
    And I will further say that I think one of the biggest 
issues is that--and, again, this may reflect the period, not so 
much the agency--the goal was really to replicate the paper 
processes that had been in place for a century into some kind 
of electronic interface, rather than create a digital interface 
that harnesses digital technology and connects to the global 
marketplace, which is where we are today.
    So when I was appointed Register on June 1, 2011, 
immediately in talking with my staff and doing a lot of 
external stakeholder meetings it became clear to me that eCO 
was something we needed to look at closely. What I wasn't 
counting on was that eCO--as the software application that we 
manage--was sitting on top of a network and operating system 
and an IT governance model that really held the key to the 
effectiveness of whether that could be developed further or 
not.
    So I am not an auditor or an accountant. We have somebody 
here to answer those questions. But this becomes a sunk cost 
issue, right? So I am not a fan of eCO. Most people are not. It 
is probably not a flexible enough software package to further 
customize and invest in. It never extended to recordation, 
which is different than registration. That is where one records 
security interests and wills and estates and any other way that 
you are going to track IP rights in the world.
    Recordation is still paper. I think we might want to 
consider it a blessing that we didn't go ahead and dump 
recordation into eCO 10 years ago as well. That is not to say 
it hasn't been painful to have that be a paper process, but I 
have come to believe that we have an opportunity now to get 
that right, and in doing recordation right, go back and 
integrate registration at the same level.
    So in the 360 that I did in the technical upgrades report 
that I released, it documents many of the frustrations. It is 
too slow, it is too clunky, it is not intuitive. One can't go 
into the system and track where they are in the process.
    I will say this. Whatever frustrations the public 
experiences are then some on the employee side who are on the 
other side of that software package using it day in and day 
out. So with that in mind and having done the baseline report, 
we do outline here the kind of administration that we really 
should be offering the public.
    The Chairman. Well, I will take that as an answer that you 
don't really like the system and it is obviously very 
antiquated. So one of the things coming out of this hearing, 
and following as well, is the Library is prioritizing resources 
in IT investment, et cetera. We will be interested to see how 
all of that works. I mean, we have to know so that we can help 
you. It is really the purpose of this hearing, so that this 
Committee can be aware of the challenges that you are all 
facing at the Library, and all across the Library, but 
certainly in the Copyright Office with IT challenges and how we 
can assist getting us up to speed so that customers--I mean, 
waiting 18 months for some of these things is a huge handicap 
for----
    Ms. Pallante. Those are paper processes, just so you know, 
not the electronic.
    The Chairman. Oh, okay, the paper process.
    Ms. Pallante. There are Members who have constituents who 
still prefer to mail things in by paper. So that is the extreme 
end.
    The Chairman. I see.
    Ms. Pallante. But it should be immediate. You are right.
    The Chairman. All right, very good. The Chair recognizes 
the Ranking Member.
    Mr. Brady. Thank you, Madam Chair.
    David, thank you for your testimony. It is clear that you 
are doing a good bit of work very quickly at the Library. It is 
a great institution with great resources for us and for the 
American people. We are friendlies here. We want to be able to 
be helpful to you. So anything that you need when you need 
anything from us, just let us know, you know, and maybe we can 
get ahead of something before something becomes a lot bigger 
than we can have to handle. So stay in touch with us, and we 
will stay in touch with you.
    I know we are here to talk about the Copyright, but I hope 
you give me a little few minutes on some details on other 
priorities that the Library is doing now under your watch.
    Mr. Mao. Thank you. Well, let me tell you about my goal 
during this time as Acting Librarian of Congress, and my main 
goal for this period is to ensure that the Library of Congress 
is best positioned for the future. That is it. The topic of 
today's hearing, IT management, certainly is a part of that 
priority and part of that goal. It is a great priority.
    But there are others as well. Other priorities for me in 
particular are focusing on the staff at the Library of 
Congress, our human resources. We need to take the time to 
invest the time and resources, develop our staff currently and 
develop future staff. Certainly collection care is something 
that we all have to worry about at the Library of Congress and 
that is another great priority.
    But I think if you take all of these, the IT management, 
the human resources, the collection care, all of them can be 
supported by the pillars that I talked about in my opening 
statement talking about leadership and collaboration, 
communication, and good governance to make sure that we can 
support all of these. And so I look forward to working with not 
only my colleague the Register of Copyrights but all of the 
senior leaders across the Library of Congress, as well as the 
very, very dedicated staff that we have at the Library and you 
Members of Congress to ensure that the Library of Congress 
continues to be the great institution that it is. Thank you.
    Mr. Brady. Thank you.
    And thank you, Madam Chair. I have no other questions.
    The Chairman. The Chair recognizes Mr. Harper.
    Mr. Harper. Thank you, Madam Chair.
    And thanks to each of you. There is obviously a little 
perceived tension on what your job is and what you have to do, 
and we want to be very sensitive to that to make sure that you 
have everything that you need to function properly. You have 
the great responsibility to oversee the Copyright Office, which 
is of tremendous importance and becoming more important every 
day.
    And I can imagine that 10 years ago, we had no real concept 
for what we were going to be or no feel for what we were going 
to be doing today and the challenges we will have as we move 
more and more into a digital age and how that is going to be 
done. And you have not only to take care of it there, but to 
take care of those users and customers, we shall say, that are 
out there.
    And, Mr. Mao, you have got an even larger responsibility. 
In that larger responsibility we want to make sure that we are 
doing everything that you are going to need to do that job, 
that is the purpose of this hearing.
    So if eCO is not the future, it is really not even the 
present, what do we do? Do you have a recommendation that you 
have for what you need, how much it would cost, and if you had 
that available, how quickly it could be implemented?
    Ms. Pallante. Well, thank you.
    So, yes, this strategic plan outlines in great detail our 
recommendations for moving forward, as well as the broad 
copyright community, so all parts of it, copyright owners, 
individual authors, businesses, public interest organizations, 
the tech sector, et cetera.
    Again, eCO is almost the last piece. That is the software 
application for certain services that the public interacts 
with. And that would have been my early intuition as Register, 
could we please throw away eCO and go to something open source? 
It can't be that hard. But in fact, it has to be related to the 
underlying operating system, who has the ability to maintain 
and access that, who has administrative privileges, how that 
relates to a robust, secure enterprise architecture designed 
with all of the different services in mind.
    One of the big issues we have is that all of the services 
are not integrated. It is really frustrating, right? I mean, if 
you are looking for rights, you want to look for registrations, 
but if you registered a book or a movie in 1985 chances are it 
has been assigned or licensed multiple times, including 
internationally. That is the chain of title that we need to 
acknowledge, and that has----
    Mr. Harper. So how do you get everything in one universe?
    Ms. Pallante. Yeah. And it requires legal thinking and IT 
thinking at the same time, and that has been disconnected in 
the past.
    Mr. Harper. And is it something, though, with work, funds, 
and determination----
    Ms. Pallante. Absolutely.
    Mr. Harper. You are clear in your report, and I looked at 
the report last night, my late-night homework to look at it.
    So, Mr. Mao, tell me what you have been doing to address 
these concerns as far as meeting with your new CIO and with the 
Register to make sure that you are going to be able to 
accomplish those goals.
    Mr. Mao. Well, thank you. First thing I want to say is that 
the Copyright Office's concerns are concerns for the Library of 
Congress and certainly they are a concern of mine, and we take 
them all very seriously. And so we are moving aggressively on 
that and I think we have done so in the last few months on 
trying to address the Copyright Office's concerns, especially 
in the IT arena. We have developed a draft IT strategic plan 
that links, when released, you will see that it links with the 
recently released Library of Congress Strategic Plan for fiscal 
years 2016 to 2020 and also works in concert with the strategic 
plan that the Register has released.
    In addition, we are working very closely by communicating. 
The CIO speaks on a regular basis, if not a daily basis, with 
the CIO for the Copyright Office so that we can make sure we 
understand the concerns that are being raised and that we can 
address them and make sure that we can provide the service and 
support that is needed.
    Mr. Harper. And does Mr. Barton have the authority and 
autonomy to move towards those things that Register Pallante 
needs to do?
    Mr. Mao. Yes, indeed. The CIO is a member of the Library's 
Executive Committee. As I mentioned earlier, I meet with him on 
a weekly basis to talk about the challenges that we are facing 
and how we are addressing them. And he has taken a great, great 
first couple of weeks, you know, in place and moving right 
ahead. And I believe Mr. Willemssen had indicated that he was 
impressed with the progress that we have made in a very short 
amount of time. And so we will continue with that moving 
forward.
    Mr. Harper. Of course, I realize he has only been on the 
job since September the 8th, not even 3 months, and I know 
those are ongoing issues and concerns that we have. But it has 
certainly got to be, you know, these are things that we as a 
Committee expect you to be able to work through, work out.
    And we are here to help. And so come to us when those 
things are here and give us that plan, what we have got to do. 
This is something we cannot neglect. And we want to, certainly, 
and I know this is something that Chair Miller is very 
committed to doing, and we will continue to have follow-up to 
check that progress, I am sure.
    With that, I yield back.
    The Chairman. The Chair recognizes the gentlelady from 
California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Madam Chair, and thanks for this 
hearing.
    Mr. Mao, welcome to the Committee. You come at a time of 
great transition for the Library. And certainly your 
predecessor did many wonderful things in his long career. Being 
a techie was not one of his fine points. So you have your work 
cut out for you, as I am sure you are aware.
    You know, I listened carefully to all of the testimony. I 
am the only member of the Committee that serves on both the 
Judiciary Committee and this Committee. And I don't want to get 
too far into the weeds on copyright law, but you have to to 
some extent.
    Section 1201 of the Digital Millennium Copyright Act 
assigns to the Register certain functions to provide for 
exemptions for anticircumvention provisions and this has been 
problematic. I am sure you heard from your constituents a 
couple of years ago when the office said you couldn't take the 
cell phone that you own and utilize it. And of course we had to 
go back in and change it. You may not have heard of the time 
that the Register declined to approve in 2010, I believe it 
was, the circumvention so that blind people could get text-to-
voice. The reason why you didn't hear about that was because 
the Librarian of Congress, thank God, overruled the Register on 
that very bad decision.
    So I do think there is, there has traditionally been a 
great value in having the office located in the Library itself. 
I just wanted to express, since I am here and we haven't had 
the Register in the Judiciary Committee, some grave concerns 
about the latest lack of exemption for vehicle research. As you 
know, almost every automobile now has software in it. And what 
the ruling has done is that if your auto mechanic has to 
circumvent the software to repair the car, they have violated 
the DMCA, because there is a specific ruling by the Register 
that third parties can't circumvent the software.
    I think that is a wrongheaded decision and I think it is 
also a dangerous decision, because all of the software defects 
in automobiles, and there are many, unfortunately, have been 
found out by third parties. The manufacturers aren't the ones 
saying, you know, by the way, your car can be hacked. It is 
third parties. So I think, I am hoping that the Register can 
share this with the new Acting Librarian and he might be able 
to step in and put some sense into this issue.
    Getting back to funding, I noticed in the GAO report, which 
is very helpful--and I am so appreciative of the GAO. You guys 
wade in, you don't have an agenda, you just try and figure out 
what is going on. You are not perfect any more than any of us 
are, but, you know, you call it as you see it. And it is so 
appreciated. You are really a valuable asset for the Congress 
and the country.
    And I notice that you have talked about on page 23 the 
Register basically hasn't formatted a plan, which I think is 
problematic, but obviously any plan would need to be funded.
    Now, I believe, and I don't know if you looked at this, Mr. 
Mao, that it is the office's position that the fee-setting 
authority would not allow fees to fund the IT upgrades and 
expansions. I don't know--I don't think that is true because 
the statute actually says that when setting fees the reasonable 
costs incurred by the Copyright Office for providing 
registration, recordation, and, quote ``provision of services'' 
can be the basis for the fees. And any tech company in the 
world would include software development as part of the 
provision of services in something that would be, I think, part 
of this fee structure.
    Did you have a chance to look at that?
    Mr. Willemssen. We did not look at that specific issue.
    Ms. Lofgren. I wonder if you could take a quick look at 
that.
    Mr. Willemssen. Okay.
    Ms. Lofgren. And the other thing that I am wondering about 
is, does the Copyright Office receive more in fees than it is 
allowed to spend in the appropriations cap and how much reserve 
is currently sitting in the Copyright Office's treasury? Maybe, 
I mean, anybody who can answer that would be welcome to do so, 
anyone who knows the answer.
    Ms. Pallante. I would be happy to answer that. I would also 
like to say, although I don't want to debate section 1201, that 
the Acting Librarian signed the rule that went out this year 
that you have referred to after extensive consultation based on 
a 400-page analysis and a year-and-a-half process. The reasons 
for all of the exemptions are noted in great detail and also 
provide the input of the Secretary of Commerce as required by 
the statute.
    With respect to the fees, under the current fee structure 
we have recommended that the language, which dates back a 
couple of decades, be adjusted to allow for some apportionment 
to charge for capital improvements. Yes, it allows us to charge 
for some inflation and some additional cost, but effectively we 
are charging for the cost of the service as we are rendering 
it.
    There are other tweaks, whether we can charge in the 
aggregate and cover cost in the aggregate, et cetera, how we 
protect small actors versus asking big actors to pay a little 
bit more. These are bigger policy issues that will require some 
statutory recommendations from us. The appropriators have asked 
that we conduct a public process on these issues, which we are 
in the middle of formulating at the time.
    With respect to the reserve, we are asked every year to 
articulate what we think we will receive in fees. And we base 
that on our best judgment and calculations. And in a good year 
we recover more. In a bad year we recover less. When we recover 
more it goes into our reserve account, which we then draw on 
for the next budget cycle.
    So, for example, in the fiscal year 2017 budget cycle, 
which we are now putting proposals forward for, some of the 
things we want to fund, like, for example, making historic 
records searchable, that have finite cost, are well funded out 
of a set finite reserve amount of money.
    Ms. Lofgren. Well, it was actually a simple question. What 
is the amount in the reserve account?
    Ms. Pallante. What is the amount right at this moment?
    Ms. Lofgren. Right.
    Ms. Pallante. I wouldn't know. But we have--it is not much. 
It is under $5 million normally.
    Ms. Lofgren. I just wondered. I mean, I don't have an 
agenda here. I just wondered what the amount was. And I would 
note----
    Ms. Pallante. We usually estimate within 2- or 3- to $5 
million, we get it right.
    Ms. Lofgren. The fee-setting authority was given in 1997 
with the electronic filing pilot program in 2006. So I think if 
you look at the plain language of the statute, you can charge 
off. And I am saying this because I don't think the taxpayers 
ought to be paying for this. When it comes to the Patent 
Office, the patent applicants pay for everything. There is no 
taxpayer's money in the patent system, and I don't think the 
taxpayers ought to be subsidizing this either. I think users 
ought to pay for it.
    Ms. Pallante. May I respond to that, please?
    Ms. Lofgren. No, because I think this is--my time is over 
and I am going to yield back. But that is just my opinion, and 
obviously there is a longer discussion, a philosophical one. 
But what the taxpayers pay for and what they don't is something 
that, you know, we need to talk about.
    The Chairman. I thank the gentlelady.
    The Chair recognizes the gentleman from Florida, Mr. 
Nugent.
    Mr. Nugent. Thank you, Madam Chair. I appreciate this 
hearing. It is a big change from a hearing I just came from 
with regards to ISIS. So it is actually a pleasure.
    But, you know, when I was Chief Executive Officer of a 
sheriff's office IT would come in and I would sort of glass 
over in regards to--you know, my big thing was, well, you 
should just be able to make that work. And I found out it is 
always not as simple as that.
    But my question really goes, obviously there is some angst 
here, as it relates to the CIO for the Library of Congress, how 
many subdivisions does that CIO have under its broad authority 
within the Library of Congress?
    Mr. Mao. Well, in part of our realignment process launched 
earlier this year, where we realigned a lot of divisions across 
the Library, not just the CIO office, our first draft at that 
has the CIO sitting above, with various units under, for 
example, like, development or--off the top of my head I can't 
think of the exact titles. But then that is the next management 
layer underneath that.
    Are you talking about with respect to the other units 
specifically, or to the services?
    Mr. Nugent. Well, like with the Register. I mean, what 
number of subdivisions does the CIO actually control?
    Because, Ms. Pallante, you have your own CIO?
    Ms. Pallante. Yes.
    Mr. Nugent. So how many CIOs does that CIO deal with on a 
daily basis?
    Mr. Mao. I see. I understand your question now.
    There are two other CIOs, Chief Information Officers, 
currently at the Library of Congress. One works currently in 
the Copyright Office and the other one in the Congressional 
Research Service.
    Mr. Nugent. Okay. So when the Library of Congress' CIO was 
interviewed, hired, Ms. Pallante, did you have any input into 
that?
    Ms. Pallante. Yes. We had people meet him--meet the two 
finalists after the fact. Yes, before he was hired.
    Mr. Nugent. Okay. There was an answer given, and you kind 
of rolled your eyes, as it relates to the CIO today in regards 
to, I guess, working relationship.
    Ms. Pallante. No. No. The question that was asked was does 
he have sufficient authority. I believe that the CIO and the 
state of best practices for CIOs is that they report to the top 
of the agency, like I report to the top of the agency. In that 
way, you have the trust and partnership and same level of 
leadership that you need to really decide what part of the 
agency is going to do what.
    What I was objecting to, and I think we have discussed 
internally, is that the CIO does not report to the Librarian, 
but reports to a Chief Operating Officer position that was 
created, which in turn reports to the Deputy Librarian, which 
reports to the Acting Librarian. I would like to see that 
addressed. I have been outspoken about that.
    Mr. Nugent. Mr. Mao, do you have a comment in regard? I 
mean, that makes a lot of sense. When you have all these 
different bureaucracies in between, I think it then becomes a 
little more difficult. As the Librarian today, you have to make 
decisions, and particularly in resources, I would think, how do 
you do those developmental resources that you have two 
subdivisions that need help? Would it be easier if that CIO 
reported directly to you?
    Mr. Mao. Well, in our estimation, the way we planned our 
reorganization or realignment, it was what we considered to be 
the best structure. And the Chief Operating Officer reports 
directly to the Librarian of Congress, similar to, as Ms. 
Pallante was saying, the Register of Copyrights. All of the 
senior executives, members of the Executive Committee, in 
purpose all report up to the Librarian of Congress, or in this 
case the Acting Librarian of Congress. The Chief Information 
Officer sits on the Executive Committee, along with all of the 
other senior executives in the Library. As I mentioned, I meet 
weekly with the Chief Information Officer to discuss issues, 
and so I make sure that I am aware of what is going on in terms 
of our challenges and making sure that we are staying on top of 
what is happening.
    Now, that is not to say that changes can't be made. 
Certainly----
    Mr. Nugent. Well, who makes that decision? Who makes that 
decision as to the reporting requirements of those department 
heads?
    Mr. Mao. It would be the Librarian. And so when we launched 
the initial realignment earlier this year, it came from the 
Librarian's office.
    Mr. Nugent. Which you have now taken over.
    Mr. Mao. That I am a part of, yes.
    Mr. Nugent. You are a part of, yes. Would you have any 
recommendations in the future as to how to go forward to make 
sure that from a customer standpoint, you know, the Register's 
office is a customer of yours, as she has customers of that 
particular subdivision. How do you propose to fix that, to make 
sure that your customer is getting the proper service in 
regards to the proper----
    Mr. Mao. Well, that is the goal for the Office of the 
Librarian, which is to make sure that all component parts of 
the Library of Congress, whether it be the Copyright Office, 
the Congressional Research Service, the Law Library, are all 
receiving the support needed so that they can carry out their 
missions. And that is the goal and that is what we do.
    Mr. Nugent. Okay. Well, I think we have beat that up 
enough.
    I appreciate it, Madam Chair. I yield back.
    The Chairman. I thank the gentleman.
    The Chair recognizes the gentleman from California, Mr. 
Vargas.
    Mr. Vargas. Thank you very much, Madam Chair. A pleasure to 
be here again.
    You know, I always measure things in a very basic way: How 
many complaints do you get versus how many compliments do you 
get on something. And I have to say the Library of Congress is 
very skewed. I get lots and lots of compliments, very few 
complaints, the truth of the matter. Most people are very, very 
happy with the Library of Congress and the work they have been 
doing, and I wanted to say that publicly, because that is 
certainly what I have experienced. It is not the case with 
other agencies and other things that we do in government. But 
certainly with the Library of Congress it has been very skewed 
on the compliment side. Again, I wanted to say thank you for 
that.
    I also, though, wanted to say this. Madam Chair, when you 
mentioned the DMV, there was a little thing that went down my 
spine, and I remember in California we were redoing--I am from 
California--we were redoing the DMV in our IT processes. And I 
remember after we spent about $200 million we gave up on that 
process and went back to the drawing board. And this was using 
a lot of those high-tech companies in California that were so 
expert supposedly on this. So again, the IT can be a real 
nightmare and I am very conscious about that.
    But I was happy to hear from GAO, and I would like to 
question you a little bit further on this, and I don't want to 
put words in your mouth, but when I first heard you describe 
some of your recommendations I thought that you were leaning 
more on the negative side. Then you used the words tremendous 
progress were being made, especially in information security. 
Could you go a little deeper in that? Because, again, I thought 
that was very positive.
    Mr. Willemssen. In my opening remarks, in the oral 
statement, I summarized primarily the results of our March 
report. Since that report, we have found the Library to be very 
responsive to our recommendations and they have made excellent 
progress. There is a lot more to do. I think the Library was 
probably a little overly optimistic in thinking they were going 
to complete between 12 and 15 recommendations by September 
2015. It is going to take a little longer than that, especially 
to see evidence of the implementation of the recommendations.
    Even though it may seem that we are in somewhat of an 
adversarial position, I feel like we have had a very 
constructive relationship, that we are all after the same 
thing, to try to make IT management better. I think along the 
way we can save some money and make things more efficient, and 
then also focus on the mission-critical needs of some of the 
service units like the Copyright Office.
    Mr. Vargas. Excellent. Well, let me ask you a further 
question then. So you are saying that they have made excellent 
progress but they were a little overly optimistic. Where do you 
think the problems are going to come from for this overly 
optimistic view that they have?
    Mr. Willemssen. Well, I think the reality of this is the 
central provider of services and service units, they are going 
to have to reach agreement on who is going to do what. I think 
that is going to not be an easy process.
    Mr. Vargas. Do you give recommendations for that?
    Mr. Willemssen. We generally do. I mentioned the term 
commodity IT a little bit earlier, and that is distinct from 
mission-critical systems like some of the systems that the 
Register mentioned. Commodity IT includes items such as 
laptops, cell phones, human resource systems, financial 
management systems, servers, data centers. Those are usually 
within the purview of the Chief Information Officer.
    When it comes to mission-critical systems, like replacing 
eCO and all of its associated systems, the business side needs 
to take the lead in defining those requirements and then turn 
it over to IT, whether it is internal or to a contractor, and 
say, ``Here is what I need. Give me your solutions. Tell me 
what you can give me in return.''
    Those requirements, that is really with the Register and 
her team to lay out--this is what we want the new system and 
the new process to look like. For example, this is what kind of 
availability, what kind of security, what kind of performance 
we want it to have.
    Mr. Vargas. Okay. Well, again, I don't want to put words in 
your mouth, but I think you said that you had a very 
constructive relationship with them. So I hope that 
constructive relationship continues and you give some guidance 
on these issues.
    Mr. Willemssen. That is just my view. I am not speaking for 
the other two witnesses here.
    Mr. Vargas. I don't see them jumping up and saying no, so I 
will take that as an affirmation.
    And lastly, again, I would say that I appreciate the work 
that the Library does. I personally have been very, very 
impressed with the work.
    And, again, thank you, Madam Chair. I appreciate the time.
    The Chairman. Thank you.
    The Chair recognizes Mr. Davis, from Illinois.
    Mr. Davis. Thank you, Madam Chairman.
    I will not follow up my colleague's question to get a 
response from you about working together with Mr. Willemssen. I 
too assume that you guys have a great working relationship.
    It is also interesting to note that most of the discussion 
here centers upon the Federal Government's inability to develop 
better IT practices. You are certainly not the only one that is 
affected by this in the Federal Government. And I think we do 
need to shine a light and make it a little more noticeable and 
put better practices in place.
    And, Ms. Pallante, I would like to mention, you know, 
obviously one of the key issues for you and for us is ensuring 
public availability of the records that you are tasked with 
keeping. And I know there is much more work to be done to put 
that modern technological infrastructure in place. And I do 
believe from some of the comments we heard today that, and most 
of you will agree too, the government is not the only entity 
that can fix this problem.
    And without objection, I would like to ask unanimous 
consent to submit a statement from the Internet Archive into 
the record.
    The Chairman. So ordered.
    Mr. Davis. Thank you very much, Madam Chairman.
    I would like you to take a look at this if you have not yet 
seen it, some of their recommendations that can help maybe make 
some progress in what we are discussing here today.
    But my first question, Ms. Pallante, are you looking at any 
private resources or capabilities to fill the gaps in services 
or areas that the Copyright Office cannot support at this time?
    Ms. Pallante. Absolutely.
    Mr. Davis. You leveraged some of these resources?
    Ms. Pallante. Yes. Copyright law is incredibly intertwined 
with technology. Copyright law has traced technology since 
1790, right, from the printing press to our iPhones. So the 
entire copyright ecosystem that we serve are already technology 
experts. That stakeholder group we would like to have more 
involvement in the underlying systems that serve them.
    So I guess, going back in time, what I would suggest 
probably was a mistake is not putting out the IT plan that has 
so fundamentally affected our customers, right? There is 
nothing that the Copyright Office does that isn't a public 
process. We operate under the APA. We have to. Courts, you 
know, have to rely on our opinions, et cetera.
    So, oddly, the operational infrastructure that is under the 
entire act of copyright administration was an agency decision 
internal. And, again, I think for us to be able to have 
technology advisory committees, to be able to have flexible 
Federal contracting, that we--again, another service that we 
get from the mothership but which hasn't worked that well for 
us--we need much better support in those areas. We need to be 
able to have short-term and long-time hires, both, to have 
state-of-the-art expertise. We need to be able to have 
interoperability between private sector standards and 
government sectors, otherwise copyright law won't work. So all 
of that is in our plan.
    Mr. Davis. So that is in your plan. I like the connotation 
of the mothership. I haven't heard that in many hearings. It is 
interesting to get it on your side rather than our side.
    I appreciate your candor. And I know you have made 
recommendations in your testimony, you have made 
recommendations just now. What question haven't we asked you 
that you feel needs to be answered that can get us to the point 
where you come in and sit at that table and talk to us about 
the IT successes and talk to us about how eCO or the next 
generation of eCO is working well?
    Ms. Pallante. Well, thank you for that question. The 
question you haven't asked me is--I guess the question I would 
ask you is why should our copyright customers feel satisfied by 
a renewed commitment to the same central process that just 
failed us so miserably?
    What we are asking for is the autonomy to make sure that IT 
is intertwined with our business and legal expertise. Quite 
frankly, even if Bud Barton, who is tremendous, and Doug Ament, 
my CIO, can agree that ITS, which is the Library's IT 
department, will be more responsive, will have better staff, 
they are still serving seven departments that have nothing to 
do with the Copyright Office. They are Library departments. It 
is a very different mission.
    And it is really odd to me as the Register that everybody 
reports through the Register's office, the general counsel, the 
policy experts, the registration experts, the recordation, all 
the business experts, except the IT, which is somewhere else 
reporting to someone else.
    And so how do we train them in mission? How do we keep them 
integrated so that that it is not separated? Because it is not 
only that it hasn't worked well, it has been a failure, a 
complete failure. And so that just can't work in the future. I 
don't see any way it is going to work.
    Mr. Davis. Well, thank you. I look forward to working with 
all three of you to work with you toward those successes. So 
thank you.
    I yield back.
    The Chairman. I thank the gentleman.
    The Chair recognizes Mrs. Comstock.
    Mrs. Comstock. Thank you, Madam Chairman.
    I too, like Mr. Vargas, appreciate the great work of the 
Library of Congress. I am the daughter of a librarian, so I 
love my libraries and appreciate all the things we are doing 
there.
    But I am sort of baffled by the sort of the antiquated, I 
think you called it, Ms. Pallante, the 19th century system that 
we have here. And, you know, I noted in your testimony you 
talked about how really it was always intended to be separate, 
and instead of having that autonomy that you need to do your 
job, we have made it more top-down, mothership kind of 
orientation, which is sort of against everything we are all 
doing these days. The reason we all have our own personal 
phones and things is we still like having flexibility whenever 
our needs demand.
    So I am very interested in making sure, given the important 
economic driver that you are having, I think there are two very 
different missions here. The Library of Congress is our 
history, it is Thomas Jefferson. I am from Virginia, I love our 
Library. But you are very tied to this huge international 
economy. And the idea that for 9 days you were down, I just am 
baffled as to--I mean, 9 hours I would be tearing my hair out. 
Nine minutes, most of us would be demanding answers. So for 9 
days, that just is clearly a system that is not working.
    So I just wanted to maybe expound a little bit more upon 
how we can make what I think is an outmoded and inefficient 
system for you work so that we make sure this important 
economic driver in our economy is going to be maximized to the 
need, as it should be, and what maybe legislative changes or 
anything we might need to do to make sure you are making the 
most of this great economic driver in our economy.
    Ms. Pallante. Thank you so much for that. I think that the 
Copyright Office wants a long-term relationship with this 
committee. We want to be able to put forward suggestions for 
all kind of things on operations.
    But the area where we really disagree, the Copyright Office 
and the Library, and it was referenced by my colleague and boss 
David Mao, is in duplication of IT services. So that is 
designed--and, again, putting aside the conflation of the two 
missions over time, which was really done for operational 
savings and goes, I think, against the reason that Congress 
created the office.
    The duplication of services can't mean that there is only 
one CIO, that that CIO makes all decisions with respect to the 
national copyright system, because de facto IT will affect the 
outcome of the system. And it can't mean that we can't develop 
our own staff of technology experts on data to work in our 
business units.
    I, frankly, think about a third of our staff has to morph 
into tech and data expertise. It used to be cataloguers. Now it 
needs to be technology and data. I don't know how we can 
administer the law without it.
    And so when you are looking at duplication of IT and you 
are trying to save money, don't do it at the expense of the 
copyright system. And I think that is really where the real 
tension is.
    Mrs. Comstock. Thank you. And I yield back.
    The Chairman. The Chair recognizes Mr. Walker.
    Mr. Walker. Thank you, Madam Chairwoman. A pleasure to be 
here today.
    I would say that one of the great advocates that you have 
in Congress on the Library of Congress is Representative Gregg 
Harper. I know he just stepped out. But he loves you guys. He 
is always talking well and always advocating on your behalf. So 
a little kudos for the work to Representative Harper on that.
    Obviously, we have got to get to the 21st century when it 
comes to technology. We can't be keeping score with an abacus 
anymore. Obviously, with the cyber threats and some of the 
things that we are seeing, serving on Homeland Security and 
some of the other committees that I have a role, and it is 
specifically going after some of the things that we are seeing, 
whether it is state sponsored, whether they are criminally 
driven, whatever it might be. And I think we have got to do a 
much better job long term on it.
    A couple questions that I have. Let me start with Mr. Mao, 
if I could, please.
    According to the GAO's report, apparently the Library did 
not know how much it was spending on IT. Can you tell me what 
is the Library doing to make sure that is clearly communicated? 
I think it is a very important point.
    Mr. Mao. Yes. And so we have instituted some processes this 
year that we have just started with this current fiscal year, 
2016, to make sure that we can track our investment 
expenditures. And we are going to continue to develop that so 
that we can continue to have a better handle on what our 
investment expenditures are going forward.
    Now, that said, we are also working with the Library's 
Inspector General and working on identifying better ways for us 
to further refine the categories in our financial management 
system so that we can better track some of those.
    Mr. Walker. You agree, you see why that is important, I 
would imagine, you see why that is important for people to know 
that you guys are confident in knowing how much money is going 
in there. Is that something that----
    Mr. Mao. Yes, indeed.
    Mr. Walker. Okay. Your confidence level in the Library's 
ability to monitor its systems and protect itself against 
external threats. One challenge I was reading and the GAO noted 
in its report was the Library had not conducted complete 
security testing, stating that the Library had installed 
continuous monitoring, but that guidance to service units on 
how out this policy and regularly carrying out the testing had 
not always occurred. Can you speak to that and maybe to any 
improvements the Library has made specifically in that realm?
    Mr. Mao. Yes. And since that recommendation has come out we 
have indeed moved forward with training staff, for example, 
that you mentioned, so that we ensure that they understand what 
the policies are and what it is that they must do to ensure the 
safety----
    Mr. Walker. Kind of working together. Just having the 
information and knowing what to do with it is very important.
    Mr. Mao. Yes.
    Mr. Walker. Okay. Thank you, Mr. Mao.
    Ms. Pallante, I noticed that some of the records from the 
Copyright Office are still in paper form. I don't know if you 
could put an exact number, but what would the value be if this 
information was maybe taken from paper form and put into 
digital form? I would imagine some of this is very important 
documents.
    Ms. Pallante, Yeah. Well, there are two pieces to that. The 
value, to answer your question, would be enormous to the 
economy, to culture, to research.
    Mr. Walker. Can you try that mic again one more time?
    Ms. Pallante. The value would be enormous, to the economy, 
to culture, to research. There are two pieces, though. One is 
historic records that stop in 1978. Those are plausibly 
important to commerce, but they are old, right? They are much 
more interesting for statistical research and following trends 
and identifying data rights.
    The piece that is still paper that is unforgivable is that 
the recordation system itself, the process where you come as a 
company or an international business and record your security 
interest, or your copyright interest in major motion pictures, 
or in software, that is still paper-based, which means that 
people submit it--we have moved now to thumb drives--staff then 
retype it. Then there is a verification activity. And that 
needs to be automated.
    We have done two major reports on that. And the question 
is, who is going to bring it online? Who is going to have the 
investments? Where are those going to be directed, to the 
Library or to the Copyright Office in some kind of partnership? 
How is it going to work?
    Mr. Walker. That is a great question. Thank you, Ms. 
Pallante.
    With that, Madam Chair, I yield back.
    The Chairman. I thank the gentleman.
    I thank all the witnesses for being here today. This 
Committee hasn't had a hearing on the copyright for quite some 
time, but certainly the GAO report sparked everybody's interest 
and attention. You can see by the participation that we have 
had here today that there is a great amount of interest from 
this Committee and a huge reservoir of good will toward the 
Library from every Member of Congress, certainly every member 
on this Committee as well.
    On the other hand, one of my favorite sayings is the 
largest room is the room for improvement. We have a very large 
room for improvement, particularly with IT for the Copyright 
Office. I think especially when you think of what a critical 
component it is, an impetus for the economy, goodness.
    So I hope you will look at this Committee as a vehicle to 
help resource you and help advocate for what you need to be 
able to do there and not wait for us to ask the question. 
Please feel free to come forward with recommendations that you 
have on the kinds of challenges that you are facing and what 
you need. Just because you don't hear from us, or because we 
have a hearing, let's face it, we probably didn't ask you all 
the questions you thought you were going to get asked. We asked 
ones that you never thought you were going to get asked maybe. 
So if we didn't ask the right question, let us know about that.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses that they might have that we will forward and ask you 
to respond, because I am sure all of us will have some.
    [The information follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
      
    The Chairman. Typical, right? You go back to your office, 
all of a sudden you think, geez, I should have asked them this.
    At any rate, we thank you all very much. We look forward to 
continuing to work with all of you for our mutual constituency, 
quite frankly. We all have the same constituent in this case, 
the American taxpayer.
    Without objection, this hearing is now adjourned. Thank 
you.
    [Whereupon, at 12:29 p.m., the Committee was adjourned.]

                                  [all]
</pre></body></html>
